OIG Audit Report GR-70-08-001

Office of Community Oriented Policing Services Technology Initiative Grants to the Morris County Department of Law and Public Safety, Morristown, New Jersey
Audit Report GR-70-08-001
January 2008
Office of the Inspector General


Executive Summary


The U.S.  Department of Justice (DOJ) Office of the Inspector General (OIG), Audit  Division, has completed an audit of three Technology Initiative Grants awarded  by the Office of Community Oriented Policing Services (COPS) to the Morris  County, New Jersey, Sheriff’s Office (Morris County).1 Between February 2003 and December 2004, COPS  awarded Morris County a total of $3,961,109,  distributed through three grants awarded successively in fiscal years 2003,  2004, and 2005. The purposes of the  three grants, respectively, were to:  (1)  replace a 40-year old voice 2-way radio system with a new 22-channel trunked  radio system; (2) purchase new mobile and portable radios; and (3) purchase a  computer system to connect all 40 law enforcement agencies in Morris County.2
The  objective of our audit was to determine whether reimbursements claimed for  costs under the grants were allowable, supported, and in accordance with  applicable laws, regulations, guidelines, and terms and conditions of the  grants.  We also assessed the grantee’s  performance in meeting grant objectives and overall accomplishments.
We found that Morris County was in  material non-compliance with the grant requirements we tested.  We reviewed its compliance with five  essential grant conditions and found material weaknesses in three of the  five areas we tested:  (1) grant  expenditures, (2) Financial Status Reports (FSR), and (3) budget management and  control.  Because of the deficiencies  identified, we question all of the funds received by Morris County,  totaling $3,960,643.  This amount is 100  percent of the federal grant funding expended.3
We  found that Morris County’s expenditures for the communications  equipment did not meet grant requirements in three ways:  (1) grant funds were used to supplant, rather  than supplement the county budget; (2) the expenditures that Morris County  reimbursed with grant funds were not made within the grant period; and (3)  documentation supporting the expenditures was inadequate.  The first two deficiencies resulted from Morris County  paying for the project with county funds and then reimbursing the county with  grant funds.  Specifically, Morris County  obtained funding for its county-wide communications upgrade project through a  series of bonds.  The county then  purchased the communications equipment, including various types of radios and  computer hardware, with the funds obtained through the bonds.  After the communications equipment was  already purchased, the county applied for and was awarded the three grants, and  then drew down the grant funds as a reimbursement for the purchases made prior  to the awarding of the grants.  The funds  for each grant were deposited directly into the county’s capital account to  reimburse the county’s previous expenditures.  
We found that Morris   County supplanted county  funds with grant funds.  According to the  1994 Crime Act, federal funds may not be used to supplant state or local  funds but instead are to be used to increase the amount of funds available from  state or local sources.4 Further, in the assurances section of  each of the grant agreements signed by Morris  County officials, Morris County  acknowledged that Technology Initiative Grant funds would not be used to  supplant (replace) state or local funds that otherwise would be made available  for the purposes of the grants.  Morris County  used grant funds to reimburse, or replace county funds that had already been  spent on the project.  By doing so, the  grant funds were not used to increase the amount of funding available for the  project, as required in the 1994 Crime Act, and the assurances signed by Morris County  officials.  
In  addition to supplanting its budget, Morris   County failed to provide  documentation demonstrating that the expenditures it made in support of its  communications upgrade were made within the approved grant period.  According to the OJP Financial Guide, a  grantee is prohibited from expending grant funds either prior to the grant  start date or after the ending date of the grant.  We asked Morris County  to show us how money from the three grants was spent.  In response, it provided documentation for  equipment that was purchased with county funds prior to the grant award  dates.  Morris County  officials told us that the grant funds were used to reimburse those  expenditures made before the grant period.   Thus, the purchases were unallowable because they were made prior to the  grant start date. 
We  also analyzed the documentation submitted by Morris County,  and found that it did not support the specific costs of the equipment purchased  with county funds, because it did not provide the per-unit cost of the  equipment purchased or the number of items purchased.  
In  the second finding area, Financial Status Reports (FSR), we found that Morris County  did not submit all 20 quarterly Financial Status Reports for the grants as  required by the Office of Justice Programs (OJP) Financial Guide.  Further, we found that the two FSRs that Morris County  did complete were not submitted in a timely manner and did not accurately  reflect activities associated with the grants.
The  documentation Morris   County provided was also  insufficient to allow us to assess budget management and control.  As noted above, Morris County  did not provide supporting documentation for the per-unit cost of the  equipment purchased or the number of items purchased with county funds.  As a result, we were unable to correlate  expenditures with the approved budget amounts for each of the three grants. 
In addition to the issues of material  non-compliance noted above, we also determined that Morris County  did not create or maintain separate program accounts for the three grants it  received.  We found that the grantee’s  accounting records did not link grant expenditures to grant receipts.  Finally, we found that the county’s accounting  records were insufficient to allow us to assess inventory control over the  equipment purchased for the communications upgrade project.
In  assessing Morris County’s performance in meeting grant  objectives and overall accomplishments, we found that the communications system  met expectations and was being utilized by public safety organizations  throughout the county.
These items are discussed in detail in the Findings and  Recommendations section of the report.   Our audit objectives, scope, and methodology appear in Appendix I.
We discussed the results of our audit with Morris County  and have included their comments in the report as applicable.  In addition, we requested a response to our  draft audit report from COPS, and their response is appended to this  report.  We did not request a response to  our draft audit report from Morris   County at the time the  draft report was issued. 


 

Footnotes

The grants were awarded to Morris   County’s Sheriff’s  Office.  However, at the time of our  audit the grant was being administered by Morris County’s  Department of Law and Public Safety.
According to the Federal Communications Commission,  in a conventional radio system a radio can access only one channel at a  time.  If that channel is in use, the  user must either wait for the channel to become idle or manually search for an  open channel.  A trunked radio system  differs from a conventional system in its ability to automatically search two  or more available channels and assign a user an open channel.
See page 13 for explanation of the remaining  $466 of the grant funds.
The Crime Act of 1994 refers to the Violent Crime Control and Law  Enforcement Act of 1994, Pub. L. No. 103-322. Specifically § 1705 Limitation on Use of Funds cites the non-supplanting  requirement.





 




Return to OIG Home Page